No. 19A-204_

_______________________________________

In The
Supreme Court of the United States
`

_____________________ ∆ _____________________
GAIL ROSIER,
Petitioner,
v.
JEFFREY STROBEL,

Respondent,
_____________________ ∆ _____________________
On Petition for a Writ of Certiorari
to the Supreme Court of Arizona
_____________________ ∆ _____________________
PETITION FOR WRIT OF CERTIORARI
_____________________ ∆ _____________________
D. Jeffrey Craven
The Craven Firm, PLLC
14555 N. Scottsdale Rd. Ste. 320
Scottsdale, AZ 85254
Phone: 480-582-1547
Email: jeff@cravenfirm.com
Attorney for Petitioner Gail Rosier

_______________________________________

i

I.
QUESTIONS PRESENTED:
1. In light of Turner v. Rogers, 564 U.S. 431
(U.S. 2011), what minimum procedural
safeguards are required to ensure due
process for incarcerated and indigent obligors
who face child support proceedings under the
Uniform Interstate Family Support Act
(“UIFSA”) and the possibility of contempt
and imprisonment?
2. In determining whether to register and
enforce a foreign order, do principals of full
faith and credit bar a state from considering
due process, subject matter jurisdiction or
fraud upon the court if those issues were not
actually raised or fully and fairly litigated in
the foreign state?
3. The UIFSA provides that an obligor may seek
to vacate the registration of a foreign support
order if he or she establishes “a defense
under the law of this state to the remedy
sought.” Does this mean that a foreign
support order may not be enforced via
contempt and imprisonment if the underlying
obligation is considered an ordinary money
debt per the laws and constitution of the
registering state? Stated differently, is a
registering state obligated to apply child
support remedies that would not be available
had the order originated in the registering
state?

ii

LIST OF PARTIES
Petitioner:
Gail Rosier represented by
Attorney D. Jeffrey Craven
(U.S. Sup. Ct. Bar No. 298766)
The Craven Firm, PLLC
14555 N. Scottsdale Rd. Ste. 320
Scottsdale, AZ 85254
Phone: 480-582-1547
Email: jeff@cravenfirm.com
and
Mark W. Horne, Esq. (AZ Bar No. 029449)
Degnan Law, PLLC, 5320 N. 16th St, Suite 205
Phoenix, AZ 85016, Phone: 602-320-0061
Email: m.horne@degnanlawaz.com
Respondent:
William A. Richards
Baskin Richards, PLC
2901 N. Central Avenue, Suite 1150
Phoenix, Arizona 85012
Email: dwood@baskinrichards.com
Attorney for Respondent Jeffrey Strobel
Interested None Party:
Carol A. Salvati
Assistant Attorney General
1275 W. Washington
Phoenix, Arizona 85007-2997
Email: Carol.Salvati@azag.gov
Attorney for the State of Arizona

iii

II. TABLE OF CONTENTS
QUESTIONS PRESENTED……………….…….i
III. TABLE OF AUTHORITIES…….…….……iv
IV. PETITION FOR WRIT……………………...1
V. OPINIONS BELOW ………………………….1
VI. JURISDICTION..….………………………….1
VII. CONSTITUTIONAL PROVISIONS
INVOLVED ………………………............2-3
VIII. STATEMENT OF THE CASE …….……..3
A. Introduction. …………………………….……...3
B. New Hampshire Proceedings ……….……...5
C. The Arizona Proceedings ……………….…….9
IX. REASONS FOR GRANTING THE
WRIT………………………………………..11-16
I. To Avoid Erroneous Deprivations of
Due Process for the Indigent and
Incarcerated Obligors Who Face Contempt and Imprisonment Under the
UIFSA………………………..……….……....11
II. To Guide States on the Extent of Their
Autonomy Under UIFSA and Clarify
What the UIFSA Means by “a defense
under the laws of this state to the
remedy sought.”…………………………..…15
X. CONCLUSION …………………………………16

iv

III. TABLE OF AUTHORITIES
CASES
Page
In Burnett-Dunham v. Spurgin,
245 S.W. 3d 14, 17 (Tex. App. 2007)…..……...16
In the Matter of Goulart & Goulart,
158 N.H. 328, 965 A.2d 1068 (2009)…………..6
Turner v. Rogers,
564 U.S. 431 (U.S. 2011)…………………i, 12, 15
Weiss v. Weiss,
100 So.3d 1220, 1228-29 (Dist. Ct. App. 2012).16
STATUTES
Page
42 U.S.C. § 666………………………………………3
RSA 458:17…………………………………………...6
A.R.S. § 25-1307 ………………………..i, 10, 11, 15

1

IV. PETITION FOR A WRIT OF
CERTIORARI
Petitioner Gail Rosier, an Arizona citizen and
resident, respectfully petitions this Court for a
writ of certiorari to review the judgment of the
Arizona Court of Appeals attached at Appendix
("App.") App.7-29.
V. OPINIONS BELOW
The decision by the Arizona Superior Court
denying the A.R.S. defense at App. 1. The order
of the Arizona Court of Appeals denying Gail’s
motin for reconsideration, App.5. The decision by
the Arizona Court of Appeals denying Gail’s
direct appeal App. 7-29 is Strobel v. Rosier, No. 1
CA-CV 16-0644 FC (Ariz. App. October 18, 2018).
The Arizona Supreme Court denied Gail’s
petition for review on May 28, 2019, App.30-31.
VI. JURISDICTION
Gail's Petition for Review to the Arizona
Supreme Court was denied on May 28, 2019
App.30-31.
Gail’s Application to extend the
deadline to file this Petition from August 26,
2019 to October 25, 2019 was granted by the
Honorable Justice Kagan on August 22, 2019.
Gail invokes this Court's jurisdiction under 28
U.S.C. § 1257 having timely filed this petition for
a writ of certiorari within the time so provided.

2

VII. CONSTITUTIONAL PROVISIONS
INVOLVED
United States Constitution, Amendment
V:
No person shall be held to answer for a
capital, or otherwise infamous crime, unless
on a presentment or indictment of a Grand
Jury, except in cases arising in the land or
naval forces, or in the Militia, when in
actual service in time of War or public
danger; nor shall any person be subject for
the same offence to be twice put in jeopardy
of life or limb; nor shall be compelled in any
criminal case to be a witness against
himself, nor be deprived of life, liberty, or
property, without due process of law; nor
shall private property be taken for public
use, without just compensation.
United States Constitution, Amendment
XIV, Section 1:
All persons born or naturalized in the
United States, and subject to the jurisdiction
thereof, are citizens of the United States and
of the State wherein they reside. No State
shall make or enforce any law which shall
abridge the privileges or immunities of
citizens of the United States; nor shall any
State deprive any person of life, liberty, or

3

property, without due process of law; nor
deny to any person within its jurisdiction
the equal protection of the laws.
United States Constitution, Amendment IV,
Section 1:
Full Faith and Credit shall be given in
each State to the public Acts, Records, and
judicial Proceedings of every other State.
And the Congress may by general Laws
prescribe the Manner in which such Acts,
Records and Proceedings shall be proved,
and the Effect thereof.
VIII. STATEMENT OF THE CASE
Introduction
This Petition arises from contempt proceedings to enforce a New Hampshire order (the
“Arrearages Order”) for the payment of an
adult’s college expenses that was registered in
Arizona pursuant to the AUIFSA for enforcement against Gail. Respondent Jeffrey Strobel
(“Strobel”) obtained the Arrearages Order
through fraudulent means during ex parte
proceedings in a foreign court that was without
jurisdiction to issue it. In 1996, Congress passed
the Personal Responsibility and Work Opportunity Act (42 U.S.C. § 666), which required that
states adopt UIFSA by January 1, 1998 or face
loss of federal funding for child support enforce-

4

ment. Every U.S. state has adopted either the
1996 or a later version of UIFSA, and Arizona’s
version is the AUIFSA.
When it comes to registering and enforcing
support orders under the UIFSA states face
much confusion and have very little guidance
with respect to what their obligations are to
ensure due process for obligors that face
contempt proceedings and imprisonment. Those
who are indigent and/or incarcerated are particularly vulnerable under the UIFSA because they
cannot afford representation and do not have
access to resources or knowledge necessary to
participate in foreign proceedings. To require
indigent and incarcerated obligors to appear in a
foreign state under the threat of contempt would
be quixotic. It seems that procedural safeguards
should be in place in each state to ensure that
incarcerated and indigent obligors can be heard
telephonically and prove their case and financial
condition without strict adherence to the varying
procedures of the several states. When facing
contempt and imprisonment under the UIFSA,
the indigent should have the right to be
appointed counsel and be informed of such right.
However, this was not the reality for Gail or the
thousands of others nationwide falling victim to
the lack of procedural safeguards and utter
confusion between the several states.

5

This case presents an opportunity for this
Court to give much needed clarity and guidance
to the states regarding their obligation to protect
the due rights of indigent and incarcerated
obligors. App.32-37 (excerpts 2008 Cornell
Journal of Law). It also presents an opportunity
for the Court to clarify under what circumstances registering states may refuse enforcement of foreign support orders they find violative
of their citizen’s constitutional protections. This
Court should define what the UIFSA means by
an obligor’s “defense under the law of this state
to the remedy sought.”
The New Hampshire Proceedings
The parties were previously married and had
one child by the name of Connor, whose date of
birth is October 9, 1991.1 When they divorced in
1996 there was no provision or orders for the
payment of child support. The parties entered
into a contract whereby Strobel waived child
support and the parties would save money for
Connor’s college expenses. In 2006 Gail, a resident of Arizona, registered the parties’ divorce
decree in New Hampshire to establish a

1

Connor became an adult when he turned eighteen on October
9, 2009.

6

parenting plan that provided for Connor’s travels
to Arizona for visitation. The parenting plan
entered by the New Hampshire Court did not
order the payment of child support.
In October of 2008, Strobel filed a “Motion to
Clarify” requesting that “the back child support
plus accrued interest being held by Gail Rosier
(by agreement for Connor’s college) be used in
the first instance of those expenses and that any
remaining balance be given to Jeffrey Strobel.”
The New Hampshire court held a hearing on the
Motion to Clarify at which Gail (who lived in
Arizona) did not appear. The New Hampshire
court issued an order on the Motion to Clarify
(the “Forrest Order”) stating that the parties’
agreement to pay Connor’s college expenses was
“valid and enforceable.”
The Forrest Order
directed Gail to “take all necessary steps to
liquidate” a property she had owned with her
second husband (the “Hopkinton Property”) and
hold the funds in trust for the payment of the
college expenses “as they accrue.” However, the
New Hampshire court was without jurisdiction
to issue the Forrest Order. In re Goulart, 965
A.2d 1068 (N.H. 2009). This is due to a New
Hampshire statute RSA 458:17, which provided:
No child support order shall require a
parent to contribute to an adult child's
college expenses or other educational

7

expenses beyond the completion of high
school. Id.
In other words, any enforcement of the parties’
agreement to pay college expenses should have
been handled in a separate civil proceeding and
not in the family court as an order for support.
On June 15, 2009, Gail was incarcerated in
Arizona, had suffered financial disaster, and
could not afford to hire an attorney for the New
Hampshire matter. In July of 2009, Strobel filed
a Petition for Contempt alleging that Gail was
intentionally avoiding her obligations under the
Forrest Order. Strobel requested that a hearing
be set at the court’s “earliest convenience” and
that a warrant for Gail’s arrest be issued if she
failed to appear.
Gail sent a letter to the New Hampshire court
about her incarceration and requested a continuance. The letter gives the addresses of both her
jail and her criminal attorney, and she specifically requests that everything be sent to those
addresses. Gail’s previous address (“the Church
Road address”) had been taken by foreclosure
and she no longer lived there. Judge Barry had
Strobel read the letter in open court, told him to
get a copy and reset the hearing for December
22, 2009.
Gail requested a continuance of the December
22, 2009 hearing via a hand-written letter to the
court stating that she was “most eager to resolve

8

this issue” but that she was incarcerated. Still,
on December 22, 2009 Strobel and his attorney
Catherine Shanelaris (“Shanelaris”) met with
Judge Barry, ex parte, and “argued hard to let
the hearing go forward as a default.” Judge
Barry granted Strobel’s “proposed order on an ex
parte basis” holding Gail in contempt for her
“failure to pay child support” and abide by the
Forrest Order. Judge Barry also “granted” Gail’s
request for a continuance as a result of her being
incarcerated. Id. Gail was not served with or
notified of the contempt order.
Unaware that she had already been held in
contempt, Gail sent yet another letter requesting
to appear telephonically, or in the alternative for
a continuance, expressly informing the court that
she could not afford to travel to New Hampshire
or hire an attorney. Gail included documentation
to show she was trying to liquidate assets to pay
for Connor’s college and that her efforts to liquiddate were held up as a result of her late husband’s probate litigation and her incarceration.
At the hearing in front of the Honorable Judge
Colburn, at which Gail could not appear, Shanelaris said she got Gail’s letter but did not tell the
court that Gail had requested to appear telephonically. The New Hampshire court did not
consider or rule on Gail’s requests. At no time
was there any procedure for Gail to appear in the
New Hampshire proceedings telephonically.

9

Shanelaris told the Court they needed “to get
an order to the division of child support services
before Strobel’s son turns eighteen” but at that
time Connor had already turned eighteen.
Shanelaris handed the court a proposed contempt order and proposed uniform support order
that were filed that same day and which were
not served upon Gail.
The proposed order
provided that Gail currently owes $202,500 in
child support arrearages and accrued interest
and that Gail must pay a lump sum of $25,000 or
be incarcerated. Judge Colburn asked Shanelaris if “the $202,500 as of 10/31/09 is a
calculation based on a prior uniform support
order approved by Master Forrest,” and Shanelaris told the court “yes.” Judge Colburn signed
the proposed orders the same day and issued a
capias for Gail’s arrest with a bond amount of
$25,000 for her release from incarceration.
Strobel then filed a “Motion to Clarify” requesting that the court “adjust and clarify the
USO to have the Court order monthly, consistent
payments on the arrears” which Shanelaris served at the Church Road Address. Judge Colburn
granted the motion and executed the Arrearages
Order setting Gail’s monthly payments at
$10,000.
The Arizona Proceedings
In January 2012, the State of Arizona filed to

10

register the Arrearages Order under the
AUIFSA and a Petition to Enforce Support via
contempt proceedings. After Gail had been held
in contempt in Arizona and arrested in court, the
State of Arizona filed a request to stay
enforcement, and also requested time to research
whether a debt resulting from a private agreement to pay college expenses constitutes “child
support.”
Gail retained counsel in New Hampshire, who
moved to set aside the Order based primarily on
an “error of law” or “error of fact.” The New
Hampshire court stated “you got to move along”
and “why don’t you get to what you think my
authority is to do something about it?” The Court
repeatedly indicated that it had no authority to
do anything about the prior Orders. The New
Hampshire court concluded that Gail “defaulted”
and issued an order that there was no legal or
factual basis for setting aside the Order. There
was no evidentiary hearing held as would be
provided for under UIFSA procedures when
seeking to vacate registration of a foreign order,
as codified in Arizona as A.R.S. § 25-1307.
After New Hampshire refused to set aside the
Order, the State of Arizona then decided on its
own to not enforce the Order because an adult’s
college expenses are not “child support.” Arizona’s constitution and case law expressly
prohibit contempt proceedings to enforce the

11

payment of an adult’s college educational expenses. However, Arizona was told by the federal
government that it had no choice but to enforce
the Order and so it proceeded with enforcement
proceedings.
Gail then requested a UIFSA hearing in
Arizona under A.R.S. § 25-1307 arguing that: (1)
New Hampshire court was without subject
matter jurisdiction, (2) the order was issued in
violation of Gail’s rights to due process, (3) the
order was the result of a fraud upon the New
Hampshire court, and (4) that it is not child
support and cannot be enforced by contempt. The
State of Arizona filed a response stating that
New Hampshire appears to have characterized
the obligation to pay college tuition as “child
support” and requested the court decide the
matter on its merits. Strobel argued that Gail’s
defenses were barred by res judicata and full
faith and credit, and that under New Hampshire
law an agreement to save for college expenses is
child support. The trial court found that Gail
“failed to establish a defense under subsection A
of A.R.S. § 25-1307” and confirmed registration.
IX. REASONS FOR GRANTING THE WRIT
1. To avoid erroneous deprivations of due
process for the indigent and incarcerated obligors who face contempt
and imprisonment under the UIFSSA.

12

This Court in Turner v. Rogers, 564 U.S. 431
(U.S. 2011) held that a state need not provide
counsel for an indigent non-custodial parent, but
with the caveat that “the State must nonetheless
have in place alternative procedures that ensure
a fundamentally fair determination of the critical
incarceration related question, which is whether
the supporting parent is able to comply with the
support order.” These safeguards include (1)
notice that “ability to pay” is a critical issue in
the contempt proceeding, (2) use of a form that
can be used to elicit relevant financial information, (3) providing an opportunity at the contempt hearing for the non-custodial parent to respond to statements and questions about his/her
financial status, and (4) requiring an express
finding by the court that the non-custodial parent has the ability to pay on the individual facts
of the case. If these safeguards are not present,
an indigent obligor facing imprisonment has the
right to appointment of counsel.
Gail was indigent during and after her release
from incarceration and expressly told the New
Hampshire court that she couldn’t afford an
attorney in her letters. Yet Gail received none of
the minimal procedures to ensure a fair hearing,
and no attorney was appointed despite the
matter being extremely complex and that Strobel
was represented by a New Hampshire attorney.
The order to appear in New Hampshire did not

13

inform Gail exactly what issues would be of
importance or awarded. The court never made
any express findings as to her indigent status,
ability to pay, or need for counsel, whileit
conclusively found her in contempt multiple
times for failing to liquidate her property and for
her failure to appear at an ex parte hearing even
though she had been granted a continuance.
Gail sent in letters to the court regarding her
lack of financial resources due to her incarceration as well as explanations and evidence that
she was trying to comply with the order to
liquidate her property but that she could not due
to probate litigation. Gail was consistently denied adequate notice and a fair opportunity to be
heard while facing contempt charges that would
result in incarceration and the loss of her liberty.
The Arrearages Order arose from the contempt
proceedings and is not independent of the New
Hampshire court’s failure to accord Gail with fair
notice and the right to be heard.
The Arizona Court of Appeals decided that
“Gail didn’t ask for an attorney” and that Gail
“failed to establish how she would have been
treated unfairly if she had appeared on her own
behalf in New Hampshire . . .” ¶ 26. However,
Gail was not notified that she may have the right
to an attorney even though she sent letters to the
court informing it that she could not afford one.
She also sent a letter stating she could not fill

14

out her affidavit of financial information in jail.
In coming to its conclusion with regard to
prejudice, the Court of Appeals did not address
that (1) Strobel was represented by an attorney,
(2) Gail was unaware she had already been held
in contempt of court ex parte, or (3) that Strobel’s
proposed
order
containing
$202,500
in
arrearages and a $25,000 capias for her arrest
were filed with the court ex parte on the day of
the hearing.
The Court of Appeals concluded that “although
the ex parte/default nature of the December 2009
and June 2010 orders seems unusual, we cannot
conclude on this record that Mother was deprived of due process.” This decision essentially
green-lights ex parte contempt proceedings involving ex-spouses who face incarceration and
undermines the very purpose of UIFSA’s provisions protecting against enforcement of ill-gotten
foreign orders.
The Court of Appeals decided that Gail did not
provide the court with a “proper notification of
change of address” but did not explain what
constitutes a “proper notification” in New
Hampshire, nor did it analyze what more Gail
could have done while she was incarcerated or
why the her address is in fact changed with the
court.
The Arizona court of appeals erred in affording
the Order full faith and credit. This case pre-

15

sents this Court with an opportunity to apply the
principles set forth in Turner to UIFSA proceedings involving indigent and incarcerated obligors
who face contempt and imprisonment in foreign
states. Absent intervention by this Court, the
indigent and incarcerated throughout this
country will continue to be left without the
ability to be heard in proceedings under the
UIFSA.
2. To guide states on the extent of their
autonomy under UIFSA and clarify
what the UIFSA means by “a defense
under the laws of this state to the
remedy sought.”
The Arizona Court of Appeals’ holding that
Gail could not raise Arizona’s constitutional and
legal protections against debtor imprisonment is
not consistent with UIFSA’s Section 607(a)(5),
codified in Arizona as A.R.S. § 25-1307(A)(5),
which provides that a party may seek to vacate
the registration of a foreign support order if he or
she establishes “a defense under the law of this
state to the remedy sought.” The Arizona court
of appeals’ holding seems contrary to the
UIFSA’s plain language and there is no decision
from this Court, and very little nation-wide,
interpreting Section 607(a)(5). What little case
law there is results in varying interpretations
with no clear and sometimes conflicting

16

definitions. See eg. In Burnett-Dunham v.
Spurgin, 245 S.W. 3d 14, 17 (Tex. App. 2007)
(“Equitable estoppel” constitutes a “defense
under the law of this state to the remedy
sought").
However, the only case found that addresses
the autonomy of a state to treat a foreign support
order as an ordinary debt is Weiss v. Weiss, 100
So. 3d 1220, 1228-29 (Dist. Ct. App. 2012), but
the majority opinion did not address it because
(unlike this case) the obligor had not yet been
held in contempt or incarcerated. The dissenting
opinion concluded that the order would have to
be enforced as an ordinary money judgment because full faith and credit “does not subordinate
Florida's laws — prohibiting imprisonment for
mere debt — to Illinois' laws.” Id. at 1228-29.
This is an opportunity for this Court to define
this provision of the UIFSA for the first time,
and to clarify whether principles of full faith and
credit supersede a state’s constitutional
protections
against
debtor
imprisonment.
Clarity is desperately needed as to what
autonomy states have, if any, to uphold their
constitutions and protect their citizens from
corrupt foreign support orders.
X. CONCLUSION
For the foregoing reasons, Petitioner Gail
Rosier respectfully requests that this Court issue

17

a writ of certiorari to review the judgment of the
Arizona Court of Appeals
Dated: October 24, 2019
____s/__________________
D. Jeffrey Craven
The Craven Firm, PLLC
14555 N. Scottsdale Rd. Ste. 320
Scottsdale, AZ 85254
Phone: 480-582-1547
Email: jeff@cravenfirm.com
Attorney for Petitioner Gail Rosier

i

APPENDICES
APPENDIX A: March 21, 2016
Superior Court of Arizona, UNDER
ADVISEMENT RULING denying
A.R.S. defense and confirming amount
due on the New Hampshire judgment
and set enforcement hearing........App.1
APPENDIX B: December 26, 2017
Arizona Court Of Appeals ORDER
DENYING MOTION FOR RECONSIDER- ATION No. 1 CA-CV 16-0644
FC……………………………………App.5
APPENDIX C: October 18, 2018 Arizona
Court of Appeals (Division One) Case
No. 1 CA-CV 16-0644 FC Affirming
Maricopa County trail court ruling and
orders in Case.FC2012-001202….App.7
APPENDIX D: May 28, 2019, Arizona Supreme Court denied petition for review Case No. CV-18-0305
PR…………………………………...App.30
APPENDIX E: Excerpts from 2008
Civil Contempt And The Indigent child
Support Obligor: Cornell Law) Pages
117-121 omitting footnotes …… App. 32

App.1

APPENDIX A
SUPERIOR COURT OF ARIZONA
MARICOPA COUNTY
FC 2012-001202

03/21/2016

HONORABLE PAUL J. MCMURDIE
CLERK OF THE COURT
J. Escargega Deputy
DAVID E WOOD
IN THE MATTTER OF
JEFFREY STROBEL
AND
GAIL ROSIER
MARK W. HORNE
AG CHILD SUPPORT
SOUTH CENTRAL OFFICE
UNDER ADVISEMENT RULING
Respondent contests the validity or enforcement of a registered support order under A.R.S.
25-1306 and -1307. Respondent requested a
hearing and filed a statement of defenses. The

App.2

Department or Economic Security took no
position on the defenses raised. The real party in
interest Jeffrey Strobel filed a response.
Respondent filed a reply.
On February 26, 2016 this Court conducted an
evidentiary hearing on the defenses raised.
THE COURT FINDS after considering the
evidence and arguments presented, that
Respondent has failed to establish a defense
under subsection A.R.S. 25-1307. Therefore,
IT IS ORDERED confirming the order
registered.
IT IS FURTHER ORDERED confirming that
the amount due and owing on the New
Hampshire Judgment as of February 23, 2016 is
$199.663.83
IT IS FURTHER ORDERED granting the
Motion to Quash the Arrest Warrant.
IT IS FURTHER ORDERED setting this matter for enforcement Review
Page 2
Hearing on 21st day of April, 2016 at 3:00 p.m.
before
The Honorable Paul J. McMurdie
Maricopa County Superior Court
Central Court Building, Courtroom 703

App.3

201 W. Jefferson
Phoenix, AZ 85003
Respondent is advised that the failure to attend
the hearing could result in the finding of
contempt an issuance of a child support arrest
warrant.
FILED: Exhibit Work Sheet
IT IS FURTHER ORDERED signing this
minute entry as a formal order of this Court
pursuant to Rule 81, Arizona Rules of Family
Law Procedure.
Dated this 21st day of March 2016.
/s/ Honorable Paul J. McMurdie
Page 3
SUPERIOR COURT OF ARIZONA
MARICOPA COUNTY
FC 2012-001202

03/21/2016

IT IS FURTHER ORDERED setting this
matter for Enforcement Review Hearing on 21st
day of April, 2016 at 3:00 p.m. before:
The Honorable Paul .J. McMurdie
Maricopa County Superior Court

App.4

Central Court Building, Courtroom
703 201 W. ,Jefferson
Phoenix, AZ 85003
Respondent is advised that the failure to attend
the hearing could result in the finding of
contempt an issuance of a child support arrest
warrant.
FILED: Exhibit Worksheet
IT IS FURTHER ORDERED signing this
minute entry as a formal order of this Court
pursuant to Rule 81. Arizona Rules of Family
Law Procedure.
DATED the 21st day of March, 2016
Maricopa County Superior Court Judge
All parties representing themselves must keep
the Court updated with address changes. A form
may he downloaded at:
http://www.superiorcourt.maricopa.gov/Superior
Court/Self- ServiceCenter.,

App.5

APPENDIX B
IN THE COURT OF APPEALS
STATE OF ARIZONA
DIVISION ONE
JEFFREY STROBEL,

)Court of Appeals
) Division One
Petitioner/Appellee,) No. 1 CA-CV
) 16-0644 FC
)
v.
)Maricopa County
)Superior Court
GAIL ROSIER,
)No. FC2012)
001202
Respondent/Appellant, )
________________________________________
STATE OF ARIZONA, ex rel.,
DEPARTMENT OF ECONOMIC
SECURITY,
Intervenor/Appellee.
________________________________________
ORDER DENYING MOTION FOR RECONSIDERATION ORDER WITHDRAWING
MEMORANDUM DECISION ORDER
ISSUING MEMORANDUM DECISION
The court, Presiding Judge Michael J. Brown,
Judge Jennifer B. Campbell, and Chief Judge

App.6

Samuel A. Thumma participating, has received
and considered Appellant’s Amended Motion for
Reconsideration and Appellee’s Response.
IT IS ORDERED
denying
Appellant’s
Amended Motion for Reconsideration.
IT IS FURTHER ORDERED, on the court’s
own motion, withdrawing the Memorandum
Decision filed December 26, 2017, and issuing a
Memorandum Decision this date.
IT IS FURTHER ORDERED directing the
Clerk of this Court to send a copy of this order to
each party that received notice of the
Memorandum Decision filed December 26, 2017.
_____/s/ ________________________
MICHAEL J. BROWN,
Presiding Judge
Page 2
A copy of the foregoing was sent to:
William A Richards
David E Wood
Mark W Horne
Carol A Salvati
Raymond L Billotte
Hon Suzanne E Cohen

App.7

APPENDIX C
NOTICE: NOT FOR OFFICIAL PUBLICATION.
UNDER ARIZONA RULE OF THE SUPREME
COURT 111(c), THIS DECISION IS NOT
PRECEDENTIAL AND MAY BE CITED ONLY
AS AUTHORIZED BY RULE.

IN THE
ARIZONA COURT OF APPEALS
DIVISION ONE
JEFFREY STROBEL, Petitioner/Appellee,
v.
GAIL ROSIER, Respondent/Appellant,
STATE OF ARIZONA, ex rel., DEPARTMENT
OF ECONOMIC SECURITY,
Intervenor/Appellee.
No. 1 CA-CV 16-0644 FC
FILED 10-18-2018
Appeal from the Superior Court in Maricopa
County No. FC2012-001202

App.8

The Honorable Paul J. McMurdie, Judge
AFFIRMED
COUNSEL
Baskin Richards PLC, Phoenix
By William A. Richards, David E. Wood
Counsel for Petitioner/Appellee
Horne Law PLLC, Phoenix
By Mark W. Horne
Counsel for Respondent/Appellant
Appendix “A”
Page 2
MEMORANDUM DECISION
Presiding Judge Michael J. Brown delivered the
decision of the Court, in which Judge Jennifer B.
Campbell and Chief Judge Samuel A. Thumma
joined.
BROWN, Judge:
¶1
Gail Rosier (“Mother”) challenges the
superior court’s ruling confirming the validity of
a registered order enforcing New Hampshire
child support arrearage orders. For the following
reasons, we affirm.

App.9

BACKGROUND
¶2 Jeffrey Strobel (“Father”) obtained child
support arrearage orders in New Hampshire,
where he lives with the parties’ now adult child.
Father sought to enforce the New Hampshire
orders in Arizona. In early 2012, the Arizona
Department of Economic Security (“ADES”) filed
a notice of registration and petition to enforce
support, asking the superior court to enter a
judgment against Mother for $202,500 for past
due child support. The New Hampshire orders in
question are the product of a complicated
procedural dispute, summarized as follows.
¶3 The parties’ marriage was dissolved in 1996
pursuant to a Dominican Republic divorce decree
that did not include an order for child support. In
2006, Father and the child lived in New
Hampshire, and Mother lived in Arizona. Mother
filed a petition to register the divorce decree in
New Hampshire and establish a parenting plan,
which resulted in a July 2006 order registering
the decree and establishing long-distance
visitation. This order did not include any child
support provisions.
¶4 In 2008, Father filed a motion to clarify,
which essentially requested a child support
order. Father alleged the parties agreed in 1997
that Mother would save for college instead of
paying child support, and in the 2006
proceedings, she admitted in her financial
affidavit that she held an interest in real

App.10

property valued at $150,000 for that specific
purpose.1 As
Page 3
a result, the New Hampshire court entered an
order in March 2009 (“March 2009 Order”)
directing Mother to immediately liquidate the
real property being held for the child’s education
expenses and place the funds in an appropriate
account. The court stated that although there
had never been a child support order entered, it
specifically considered and found it had
jurisdiction over Mother “to establish, enforce, or
modify a support order pursuant to [New
Hampshire
Revised
Statutes
Annotated
(“R.S.A.”) section] 546-B:3 II, III, and IV,” and
that the parties’ 1997 agreement was valid and
enforceable. Mother was not present at the
hearing and the court found she was in default.
¶5 When Mother failed to provide an accounting
as ordered, Father filed a petition for contempt in
July 2009, asking the New Hampshire court to
enter an order specifying that Mother owed
$105,000 in past child support. In a letter to the
court dated December 8, 2009, Mother stated she

1

Later, Mother asserted she made a clerical error in her
financial affidavit, and that the value of her interest in the real
property was actually
$105,000.

App.11

was incarcerated in Arizona and could not
appear at the contempt hearing set for December
22, 2009, until after she was released and
received permission to travel from her parole
officer. On December 22, 2009, the court granted
Mother’s request and continued the hearing to
March 9, 2010. However, the court also granted
Father’s proposed order “on an ex parte basis”
and found Mother in contempt of the March 2009
Order to pay child support.
¶6 In a subsequent letter, Mother informed the
New Hampshire court she could not afford to
attend the March 9, 2010 hearing and asked to
appear telephonically. Mother also stated her
late husband’s assets were subject to probate
litigation and she could not liquidate the real
property.
¶7On March 9, 2010, the New Hampshire court
entered an order (“2010 Arrearage Order”)
finding Mother in contempt for failing to pay
child support and ordered an immediate payment
of $25,000. The court found Mother owed
$202,500 in child support arrearages plus
interest and ordered Mother to reimburse Father
for a $7,500 inheritance her late husband left for
the child that “she spent.” The 2010 Arrearage
Order included a payment schedule indicating
Mother owed $105,000 in back child support as of
March 1, 2010, payable immediately or pursuant
to a payment schedule that added $10,000 a
year, up to and including March 1, 2020 for a

App.12

total of $205,000 in back child support. The New
Hampshire court issued a corresponding Uniform
Support Order (“USO”) for child
Page 4
support arrearages of $202,500 as of October 31,
2009, which included the payment schedule.2
¶8 Shortly thereafter, Father moved to clarify
the USO to require that Mother make consistent
monthly payments. In June 2010, the New
Hampshire court issued an amended USO (“June
2010 USO”) ordering Mother to pay child support
arrearages of $202,500 at the rate of $10,000 per
month. The June 2010 USO did not include the
payment schedule attached to Father’s motion to
clarify.
¶9 Father, with the assistance of ADES, sought
to enforce the June 2010 USO in Arizona. In
response to the Arizona petition to enforce,
Mother claimed the New Hampshire orders were
issued ex parte, in violation of her due process
rights and without any legal basis. Mother
admitted she was served with unspecified papers
regarding the New Hampshire motions while
incarcerated but stated she was in no position to
respond financially or emotionally. Mother
informed the Arizona court that a hearing on her
Mother claimed she first received the 2010 Arrearage Order on
November 11, 2013, after appearing in court in Arizona.

2

App.13

motion to vacate the New Hampshire orders was
pending, which resulted in a continuance of the
hearing in Arizona pending a resolution of
Mother’s New Hampshire motion to vacate.
¶10 In May 2014, after briefing and oral
argument, the New Hampshire court found no
basis for vacating the existing orders, concluding
that the June 2010 USO “is an enforceable order
on a child support arrearage.” The New
Hampshire Supreme Court declined Mother’s
notice of appeal.3
¶11 Back in Arizona, Mother raised several
defenses to enforcement pursuant to Arizona
Revised Statutes (“A.R.S.”) section 25-1307 and
the Full Faith and Credit for Child Support
Orders Act, 28 United States Code (“U.S.C.”)
section 1738B. ADES took no position on
Mother’s request to vacate the registration or
enforcement. Father argued Mother was
precluded from seeking relief from enforcement
under the
Page 5
doctrines of res judicata, the Full Faith and

3

As the New Hampshire Supreme Court explained, pursuant to
“Rule 7(1)(B), the supreme court may decline to accept a notice
of discretionary appeal from the superior or circuit court. No
appeal, however, is declined except by unanimous vote of the
court with at least three justices participating.”

App.14

Credit Clause of the United States Constitution,
and 28 U.S.C. § 1738B.
¶12 After an evidentiary hearing, the Arizona
superior court found Mother failed to establish a
defense to enforcement under A.R.S.§ 25-1307(A)
and confirmed the registration of the New
Hampshire
arrearage
orders.
We
have
jurisdiction over Mother’s timely appeal
pursuant to A.R.S. § 12-2101(A)(1).
DISCUSSION
¶13 To contest the validity or enforcement of the
New Hampshire orders, Mother has the burden
of proving the orders were not entitled to full
faith and credit or establishing one of the
defenses recognized in A.R.S.§ 25-1307(A), which
is part of Arizona’s version of the Uniform
Interstate Family Support Act. Judgments
rendered in a particular state shall be given the
same full faith and credit by the courts of every
other state “as the judgment would be accorded
in the rendering state.” Phares v. Nutter, 125
Ariz. 291, 293 (1980). “But foreign judgments
may be attacked if the rendering court lacked
jurisdiction over the person or subject matter,
the judgment was obtained through lack of due
process, the judgment was the result of extrinsic
fraud, or if the judgment was invalid or
unenforceable.” Id. Whether a foreign judgment
is entitled to full faith and credit is a question of

App.15

law that we review de novo. Grynberg v. Shaffer,
216 Ariz. 256, 257, ¶ 5 (App. 2007).
A. Subject Matter Jurisdiction
¶14 Pursuant to 28 U.S.C. § 1738B(c)(1)(A), a
foreign support order is entitled to full faith and
credit if the issuing court had subject matter
jurisdiction to hear the matter and enter the
order and had personal jurisdiction over the
parties. “[A] duly authenticated judgment of a
court of general jurisdiction of a sister state is
prima facie evidence of that court’s jurisdiction to
render it and of the right which it purports to
adjudicate.” Lofts v. Superior Court, 140 Ariz.
407, 411 (1984). Mother asserts the New
Hampshire court did not have subject matter
jurisdiction (1) to enforce the agreement to pay
college expenses as a child support order, or (2)
to enter an arrearage order when there was no
prior child support order.
¶15 Mother characterizes these arguments as
challenges to the New Hampshire court’s subject
matter jurisdiction; however, her arguments are
based on the correctness of the rulings under
applicable New Hampshire law. Subject matter
jurisdiction “refers to a court’s statutory or
constitutional power to hear and determine a
particular case.” In re
Page 6

App.16

Marriage of Thorn, 235 Ariz. 216, 220, ¶ 17 (App.
2014) (quoting State v. Maldonado, 223 Ariz. 309,
311, ¶ 14 (2010)). Allegations of legal error do
not constitute a lack of subject matter
jurisdiction. In Estes v. Superior Court, our
supreme court “distinguished ’the right of a court
to misconstrue the law measuring the rights of
the parties . . . [from] the right of a court to
misconstrue a statute or law from which jurisdiction or power of the court flows—a jurisdictional
law.’” Estes v. Superior Court, 137 Ariz. 515, 517
(1983) (quoting Ariz. Pub. Serv. Co. v. S. Union
Gas Co., 76 Ariz. 373, 382 (1954)).
“Misinterpreting a procedural matter amounts to
legal error which may result in reversal by an
appellate court, but subject matter jurisdiction
remains unaffected by the misinterpretation.” Id.
Allegations that the New Hampshire orders were
improperly based on a contract, instead of child
support guidelines, and were not based on a prior
child support order, constitute assertions of legal
error, not a lack of subject matter jurisdiction.
¶16 Even assuming Mother is challenging more
than the correctness of the New Hampshire
court’s rulings, she has failed to establish that
the arrearage orders are void for lack of subject
matter jurisdiction. Relying on In re Goulart, 965
A.2d 1068, 1071 (N.H. 2009), Mother argues that
“New Hampshire courts are without subject
matter jurisdiction to issue or enforce any order
for the payment of college expenses.” In Goulart,

App.17

the parents stipulated to inclusion of a provision
for payment of college expenses in the anticipated divorce decree, notwithstanding a statutory provision that prohibited such an order. Id.
at 1070 (citing R.S.A. 461–A:14, V (“No child
support order shall require a parent to contribute
to an adult child's college expenses or other
educational expenses beyond the completion of
high school.”)). The New Hampshire Supreme
Court held that the family court lacked subject
matter jurisdiction to approve a parenting plan
or issue an order requiring a parent to pay an
adult child's college education expenses and a
parent’s “’waiver’ could not confer subject matter
jurisdiction where it did not exist; and any such
orders were void.” Id. at 1071. The New
Hampshire arrearage orders in this case,
although based on the parties’ 1997 agreement,
do not require Mother to contribute to her son’s
“college expenses or other educational expenses”
and thus the orders do not fall within the plain
language of the statute at issue in Goulart. See
id. at 1070 (citing R.S.A. 461–A:14, V).
¶17 Moreover, Mother fails to acknowledge the
“proposition that the requirements of full faith
and credit bar a defendant from collaterally
attacking a divorce decree on jurisdictional
grounds in the courts of a sister State where
there has been participation by the defendant in
the divorce proceedings, where the defendant has
been accorded full opportunity to contest the

App.18

jurisdictional issues, and where the decree is not
susceptible to
Page 7
such collateral attack in the courts of the State
which rendered the decree.” Sherrer v. Sherrer,
334 U.S. 343, 351–52 (1948); see also Williams v.
North Carolina, 325 U.S. 226, 230 (1945) (“It is
one thing to reopen an issue that has been settled after appropriate opportunity to present their
contentions has been afforded to all who had an
interest in its adjudication. This applies also to
jurisdictional questions. After a contest these
cannot be relitigated as between the parties.”).
¶18 Mother had a full opportunity to challenge
the New Hampshire court’s subject matter
jurisdiction but did not do so until Father
registered the arrearage orders in Arizona. In
fact, Mother indicated just the opposite when she
filed her 2014 motion to vacate in New
Hampshire, stating that “[she] does not dispute
that the Court had jurisdiction to establish a
child support order under the Uniform Interstate
Family Support Act, [R.S.A.] chapter 546-B:31.”
Thus, Mother has failed to meet her burden of
showing that the New Hampshire court lacked
subject matter jurisdiction to issue the arrearage
orders.
B. Res Judicata
¶19 Mother’s collateral attacks on the merits of
the New Hampshire orders are precluded under
the doctrine of res judicata (claim preclusion),

App.19

which provides that an existing final judgment
on the merits by a court of competent jurisdiction
bars further litigation between the same parties
on every point decided as well as every point that
could have been decided on the record in the
prior proceeding. See Underwriters Nat’l
Assurance Co. v. N.C. Life & Accident & Health
Ins. Guar. Ass’n, 455 U.S. 691, 710 (1982) (“A
party cannot escape the requirements of full faith
and credit or res judicata by asserting its own
failure to raise matters clearly within the scope
of a prior proceeding.”); Pettit v. Pettit, 218 Ariz.
529, 530, ¶ 1 (App. 2008) (holding that res
judicata bars re-litigation of matters actually
litigated in a prior action as well as issues that
might have been litigated); see also Brooks v.
Trs. of Dartmouth Coll., 20 A.3d 890, 894 (N.H.
2011) (same).
¶20 Mother argues the 2010 Arrearage Order
and subsequent New Hampshire orders were
based on Father’s fraudulent misrepresentations
in the March 2010 hearing. Mother’s allegations
of legal errors and fraud were either raised or
could have been raised in the 2014 New
Hampshire proceedings or earlier. In seeking to
vacate the March 2009 Order and subsequent
orders, Mother argued in part there was no basis
in fact or law for the New Hampshire orders. And
as her counsel acknowledged at the Arizona
evidentiary hearing, Mother could have
Page 7

App.20

raised all of her substantive claims, including
fraud, in her 2014 New Hampshire motion to
vacate, but she failed to do so.
¶21 Mother contends the New Hampshire orders
do not have preclusive effect because they were
entered by default, citing Schilz v. Superior
Court, 144 Ariz. 65 (1985). In that case, our
supreme court held that a foreign judgment was
not entitled to full faith and credit because
neither the father nor his counsel had appeared
or otherwise litigated the matters at issue.
Schilz, 144 Ariz. at 68. Thus, the Arizona courts
could consider whether the issuing court properly
exercised jurisdiction. Id. Here, although Mother
did not contest jurisdiction in New Hampshire,
she appeared, or had the opportunity to appear,
in those proceedings and thus had the opportunity to raise defenses and objections, including
lack of jurisdiction. Accordingly, the New Hampshire orders are entitled to res judicata effect.
See Lofts, 140 Ariz. at 411 (“When the rendering
court in a contested hearing determines it has
jurisdiction, its determination is res judicata on
the jurisdictional issue and cannot be relitigated
in another state.”). As to Mother’s non-jurisdictional arguments, a “default judgment has the
same res judicata effect as a judgment in a
matter where the issues were litigated.” Norriega
v. Machado, 179 Ariz. 348, 353 (App. 1994)
(citing Tech. Air Prods., Inc. v. Sheridan-Gray,
Inc., 103 Ariz. 450, 452 (1968)).

App.21

¶22 Mother relies on State ex rel. Dep’t of Econ.
Sec. v. Powers, 184 Ariz. 235 (App. 1995), which
is also distinguishable. In Powers, the parties’
default divorce decree did not mention any
children common to the parties. Id. at 237–38. In
addressing a subsequent paternity action, we
concluded that the child’s paternity was not
actually litigated in the divorce proceeding and
thus we declined to apply collateral estoppel
(issue preclusion). Id. at 238. The analysis in
Powers did not involve application of res judicata
and thus it is not relevant to the issues presented
here. Unlike collateral estoppel, res judicata does
not require actual litigation. See Circle K Corp. v.
Indus. Comm’n, 179 Ariz. 422, 427 (App. 1993)
(“Issue preclusion does not apply in this case
because the issue of causation has never been
litigated.”); see also In re the Gen. Adjudication
of All Rights to Use Water in the Gila River Sys.
& Source, 212 Ariz. 64, 70 n.8, ¶ 14 (2006)
(noting that only “claim preclusion” was at issue
and recognizing that with respect to a default
judgment, “none of the issues is actually
litigated.”).
¶23
Mother never appealed the 2009 New
Hampshire orders, and they became final. Her
attempt to vacate those orders in 2014 was
unsuccessful. She argues the 2014 New
Hampshire proceedings are not entitled to res
judicata effect because the issues raised were not

App.22

actually litigated. However, in her motion to
vacate and at the 2014 hearing, Mother
Page 8
argued there was no child support order on
which to base an arrearages order; the amount of
the arrearages had no factual basis; she could not
liquidate the real property and thus could not be
found in willful violation of a court order; and she
was wrongfully denied a continuance or telephonic appearance. The New Hampshire court
affirmed the prior orders, and Mother’s subsequent appeal was denied. Regardless of whether
the New Hampshire courts decided these issues
correctly in 2009, 2010, and again in 2014, the
doctrine of res judicata precludes Mother from
challenging those orders in this proceeding.4
C. Due Process
¶24 Mother also argues the New Hampshire
orders are not entitled to full faith and credit
because she was denied due process. See 28
U.S.C. § 1738B(c)(2). She contends she was never
served with the December 2009 order, the 2010

4

Because we conclude the New Hampshire orders are entitled
to full faith and credit, we need not address Father’s argument
that Mother’s unsuccessful litigation against Father in federal
district court also precludes Mother’s challenge to the New
Hampshire orders.

App.23

Arrearage Order, Father’s May 2010 motion to
clarify, or the resulting June 2010 USO.
However, Father’s 2010 motion to clarify includeed a certificate of service signed by his attorney.
The June 2010 USO states it was issued after a
hearing and lists Mother’s Church Road address.
Mother now claims the Church Road address was
incorrect and that she notified the New Hampshire court to send everything to her criminal
defense attorney in Arizona. But Mother’s
December 8, 2009 letter to the court does not list
an Arizona address or give her criminal defense
attorney’s address. Similarly, Mother’s letter
asking to continue the March 9, 2010 hearing
does not provide a criminal defense attorney’s
address, and although it includes a different
address under her signature, the letter does not
constitute proper notification of a change of
address.
¶25 Additionally, at the 2014 hearing in New
Hampshire, Mother stated she received the “2010
order” and “contacted her New Hampshire attorney.” In the 2014 New Hampshire proceedings,
Mother never claimed she was not served or did
not receive any orders. This is inconsistent with
her claim in the Arizona proceedings that she
was not aware of the 2010 Arrearage Order until
November 2013. In light of these facts and
Mother’s letters to the New Hampshire court in
December 2009 and March 2010, we can
reasonably infer that the Arizona court found

App.24

Mother’s claim that she was unaware of the New
Hampshire orders or the status of the arrearage
litigation was not credible. See Wippman v.
Rowe, 24 Ariz. App. 522, 525
Page 9
(1975) (holding that an appellate court “may
infer from any judgment the findings necessary
to sustain it if such additional findings do not
conflict with express findings and are reasonably
supported by the evidence”).
¶26 Mother also contends she was denied due
process by the New Hampshire court’s denial of
her request to appear telephonically and to
appoint counsel. Regarding appointment of
counsel, Mother does not point or direct us to any
part of the record where she made such a request
in the New Hampshire court proceedings. Thus,
we reject Mother’s contention that she was
denied due process when the New Hampshire
court failed to sua sponte appoint counsel.
Moreover, a trial court may appoint counsel in
child support enforcement cases when the
possibility of incarceration exists and when the
defendant may be treated unfairly without the
assistance of counsel. Duval v. Duval, 322 A.2d 1,
4 (N.H. 1974). Mother has failed to establish how
she would have been treated unfairly if she had
appeared on her own behalf in New Hampshire
in connection with the 2009 and 2010
proceedings.

App.25

¶27 The reasons for the New Hampshire court’s
failure to rule on Mother’s informal request to
appear telephonically at the hearing are unclear.
The New Hampshire court continued the
December 2009 hearing, thus implicitly denying
the request, but in the same order it found
Mother in contempt. The 2010 Arrearage Order
was entered after Mother sent another letter
stating she was available to appear telephonically or was “open to continuing the matter.”
Father claimed he received Mother’s letter one
day before the March 2010 hearing. Mother did
not establish when the New Hampshire court
received her letter. Without such evidence, the
New Hampshire court properly may have
deemed Mother’s request untimely or improperly
filed. Mother also raised this issue in the 2014
New Hampshire motion to vacate, which was
denied. Although the ex parte/default nature of
the December 2009 and June 2010 orders seems
unusual, we cannot conclude on this record that
Mother was deprived of due process.
D. Application of A.R.S. § 25-1307(A)
¶28 Under A.R.S. § 25-1307(A)(5), a party may
seek to vacate the registration of a foreign
support order if he or she establishes “a defense
under the law of this state to the remedy sought.”
That section provides as follows:
A party contesting the validity or
enforcement of a registered support

App.26

order or seeking to vacate the registration has the burden of proving
one or more of the following defenses:

1.
2.
3.
4.
5.
6.
7.

8.

Page 10
The issuing tribunal lacked personal
jurisdiction over the contesting party.
The order was obtained by fraud.
The order has been vacated, suspended or
modified by a later order.
The issuing tribunal has stayed the order
pending appeal.
There is a defense under the law of this state
to the remedy sought.
Full or partial payment has been made.
The statute of limitations applicable under §
25-1304 precludes enforcement of some or all
of the alleged arrearages.
The alleged controlling order is not the
controlling order.

A.R.S. § 25-1307(A). Mother contends her obligation to pay college expenses is not child support,
but instead is a contractual obligation which
cannot be enforced by way of contempt in
Arizona after the child turns 18. In Solomon v.
Findley, 167 Ariz. 409, 411–12 (1991), our
supreme court held that the superior court
lacked authority to enforce child support
provisions after a child reached majority, but the

App.27

parties’ agreement to pay college expenses was
enforceable as an independent contract claim.
¶29 Mother contends she could not have raised
this Arizona defense in the New Hampshire
proceedings; therefore, it is not barred by res
judicata. However, her attempt to challenge the
authority to enter a child support order that
arguably should have been handled as a contract
claim constitutes an impermissible collateral
attack on the New Hampshire arrearage order.
Correctly or incorrectly, the New Hampshire
court expressly concluded that the parties’
agreement supported a valid and enforceable
child support order. After Mother failed to
comply with that order, the New Hampshire
court found her in contempt and entered a child
support arrearage order. Mother improperly
seeks to apply Arizona law regarding agreements
to pay college expenses to an issue already
decided by the New Hampshire court based on
New Hampshire law.5
Page 11

New Hampshire does allow contempt enforcement in some
circumstances. See Solomon, 167 Ariz. at 411–12 n.2 (citing
Lund v. Lund, 74 A.2d 557, 559 (N.H. 1950) (allowing contempt
action for spouse’s failure to pay tuition expenses of the parties’
child after she turned 18, as one of several jurisdictions allowing
post-majority support provisions to be enforced by contempt)).
5

App.28

¶30
Because
Mother
challenges
the
interpretation of the arrearage order as a child
support order, the law of the issuing state
applies. See 28 U.S.C. § 1738B(h)(2). This is not
an issue of enforcement, where Arizona law
would apply. See id. § 1738B(h)(1). On this
choice of law question, 28 U.S.C. § 1738B governs
and “preempts all similar state laws pursuant to
the Supremacy Clause of the United States
Constitution.” In re Marriage of Yuro, 192 Ariz.
568, 571, ¶ 7 (App. 1998). Pursuant to 28 U.S.C.
§ 1738B(h), we apply New Hampshire law to
interpret the orders, not Arizona law. Mother,
therefore, cannot rely on Solomon in her effort to
challenge the correctness of the arrearage orders
issued by the New Hampshire court.
CONCLUSION
¶31 We affirm the order to enforce the arrearage
orders. We deny Father’s request for an award of
attorneys’ fees on appeal because he failed to cite
any authority to support his request. See Ezell v.
Quon, 224 Ariz. 532, 539, ¶ 31 (App. 2010); see
also Arizona Rules of Civil Appellate Procedure
(“ARCAP”) 21(a)(2).
Court seal
(COURT OF APPEALS
STATE OF ARIZONA)

App.29

AMY M. WOOD • Clerk of the Court
FILED: AA

App.30

APPENDIX D
COURT SEAL
(Supreme Court State of Arizona)
Supreme Court
STATE OF ARIZONA
SCOTT BALES
JANET JOHNSON
Chief Justice
Clerk of the Court
ARIZONA STATE COURTS BUILDING 1501
WEST WASHINGTON STREET, SUITE 402
PHOENIX, ARIZONA 85007-3231
TELEPHONE: (602) 452-3396
May 28, 2019
RE: JEFFREY STROBEL v GAIL
ROSIER/STATE ex rel DES
Arizona Supreme Court No. CV-18-0305-PR
Court of Appeals, Division One No. 1 CACV 16-0644
FC Maricopa County Superior Court No.
FC2012-001202
GREETINGS:
The following action was taken by the Supreme
Court of the State of Arizona on May 28, 2019, in
regard to the above-referenced cause:

App.31

ORDERED: Petition for Review - DENIED.
Vice Chief Justice Brutinel did not
participate in the determination of this
matter.
Janet Johnson, Clerk
TO:
William A Richards
Austin Jeffrey Miller
Carol A Salvati
Amy M Wood
Pm

App.32

APPENDIX E
Excerpts from
CIVIL CONTEMPT AND THE INDIGENT
CHILD SUPPORT OBLIGOR: THE SILENT
RETURN OF DEBTOR’S PRISON
Elizabeth G. Patterson 2008; CORNELL
JOURNAL OF LAW AND PUBLIC POLICY
[Vol. 18:95}
Pages 116 to 121
….
Page 116
A. Extent of Incarceration of Indigents
The inability of indigent obligors to make
court-ordered payments or to pay purge amounts
would not be a systemic legal problem if courts
were not finding such obligors in contempt and
then coercively imprisoning them despite their
inability to pay. There is little hard data to show
the number of indigent child support obligors
who are jailed for nonpaypage 117
ment, nor even the total number of child support
contemnors.151 However, the limited existing
data suggest that the number is substantial:
- When a 2003 New Jersey Supreme Court
ruling mandated the release of all indigent
child support contemnors who had not been
represented by counsel, experts estimated that
300 persons would be released.152
- The Delaware Supreme Court found that in
that state the Family Court sentenced 518 civil

App.33

contemnors to a period of incarceration in
1995.153
- A 1982–1983 study found that during a twoyear period, 131 civil contemnors were jailed for
nonpayment of child support in a single New
Mexico county.154
- An Indiana child support prosecutor reported
in 2002 that 2,400–3,300 child support obligors
were incarcerated annually for nonpayment,
80–85 percent of them for civil contempt.155
- A 2005 survey of South Carolina jails revealed
that the state’s jails averaged over 1,500 child
support contemnors at any given time.156
- A report by the Center for Family Policy and
Practice summarizes numerous newspaper and
other reports from thirty-six states documenting widespread arrests and incarcerations of
nonpaying obligors.157
The demographics of child support caseloads,
particularly those with significant arrearages,
support the conclusion that a substantial
majority of these contemnors are indigent or
otherwise without the means to pay the purge
amount. According to the federal Office of Child
Support Enforcement, in 2006 over $105 billion
in arrearages were owed by 11.1
Page 118
million obligors.158 The majority of the obligors
with arrearages, and thus subject to repeated
contempt proceedings, are below the poverty

App.34

line.159 The federal Office of Child Support
Enforcement reports that 70 percent of child
support arrearages are owed by noncustodial
parents with no annual earnings or earnings less
than $10,000.160 Only 4 percent are owed by
non-custodial parents with an annual income of
$40,000 or more.161
The contempt process is used only with those
contemnors from whom support cannot be obtained through other enforcement techniques,
including wage withholding and seizure of
assets.162 Non-indigent obligors against whom it
is necessary to institute contempt proceedings
generally pay the arrearage when threatened
with jail. It can reasonably be inferred, therefore,
that when large numbers of child support obligors are incarcerated, most are indigent.
This conclusion is further buffered by the facts
of appellate cases from throughout the nation
that show indigent obligors being jailed for civil
contempt with little attention to the economic
circumstances
underlying
their
noncompliance.163 Indigents are especially unlikely to
appeal civil contempt orders, given their lack of
access to appellate counsel in most states and the
brevity of the typical contempt sentence.164
Therefore, the reported cases can be seen as
indicators of a much larger number of
unappealed contempt incarcerations.
Page 119
B. The Heavy Burden of Proving Inability to Pay

App.35

There are a number of interrelated reasons
why courts incarcerate substantial numbers of
indigent obligors for civil contempt despite their
inability to pay the ordered support or the purge
amount. Particularly important is the lack of
hard evidence on issues related to the obligor’s
inability to pay, combined with the unfavorable
structuring of the burden of proof and a judicial
disinclination to find obligors’ testimony credible.
In civil contempt proceedings, unlike those for
criminal contempt, 165 absence of willfulness is
treated as a defense, and the initial burden is on
the contemnor to plead and present evidence of
his or her inability to comply with the order.166
Some states shift the burden back to the petitioner once the alleged contemnor makes a prima
facie showing of inability to comply,167 but
others place the full burden of proof in regard to
willfulness/inability
to
comply
on
the
defendant.168 Proving inability to comply can be
factually complex, implicating the economic
circumstances of the obligor, his work history
and potential, his available assets,169 and his
own subsistence needs.170 To meet
Page 120
this burden, the alleged contemnor must at the
very least present evidence of his or her employment (or lack thereof), wages, expenses, and
assets. However, gauging the ability to pay may
be much more complicated than this, involving
issues of good faith responsibility for other

App.36

obligations,171 voluntariness of the obligor’s
unemployment or underemployment,172 and the
availability of borrowed funds173 or assets

Page 121
owned by others174 to satisfy the obligor’s debt. There
may be legal as well as factual components to these
issues.175 The complexity of these issues puts them
beyond the understanding of most indigents, who will
rarely be able to effectively respond to the petitioner’s
case in these areas, much less present a case in chief of
their own. Even the simplest “inability to pay”
argument requires articulating the defense, gathering
and presenting documentary and other evidence, and
responding to legally significant questions from the
bench—tasks which are “probably awesome and
perhaps insuperable undertakings to the uninitiated
layperson.” 176 This is particularly true where the
layperson is indigent and poorly educated.
Adding to the obligor’s burden is the potential that
the court will hold his or her testimony concerning
inability to pay to be insufficient evidence or lacking in
credibility in the absence of documentary corroboration.177 Retention of the necessary records among
indigents is rare, particularly given the widespread
instability in their employment, housing, and other
aspects of their lives. Even in the many states in which
the civil contemnor has a right to appointed counsel,
the lack of documentary evidence makes it difficult for
the attorney to prove to the satisfaction of the court his
client’s inability to pay. The indigent contemnor
without counsel will rarely if ever be able to do so.
C. The Role of Judicial Perceptions and Attitudes
The most disturbing aspect of the case law, and a
significant contributor to inappropriate coercive incar-

App.37
cerations, is the frequency with which indigent child
support obligors are imprisoned as a result of trial
courts’ abuse of their civil contempt authority.
Repeatedly, the reported

